Supreme Court,
FILED

FEB 1 9 2021
OFFICE OF THE CLERK

No.

ao- ms

Supreme fimtrf of %

jSfafea

Robert Grundstein Esq.
vs

Vermont Board of Bar Examiners

On Petition for Writ of Certiorari to the Vermont State
Supreme Court

PETITION FOR WRIT OF CERTIORARI
Robert H. Grundstein Esq.
18 Griggs Road
Morrisville, Vermont 05661
rgrunds@pshift.com
802-397-8839
Attorney for Petitioner

Joshua Diamond/Assistant AG
109 State Street
Montpelier, VT 05609
Joshua.Diamond@vermont.gov
802-595-8397
Attorney of Record

cJ

QUESTIONS PRESENTED FOR REVIEW
Opportunity to Resolve Vermont Violations and Circuit
Splits Pertinent to Bar Admissions
What Levels of Due Process are Required for
Bar Admission?
Can A State Impose a Five Year Maximum Between Date
Applicant Graduates from Law School and Sits for Exam?
1
Insufficient 5^ and 14th Amendment Due Process for Ver­
mont Character and Fitness Procedures Circuit Splits on
Level of Due Process for Character and Fitness
Is an informal interview before a State Character and Fit­
ness Committee, without additional hearings or standards of
evidence and burdens of proof similar to those required by
the Administrative Procedures Act, sufficient Due Process if
a party is denied summary admission to a State Bar? (Most
states have an administrative hearing and appeal after in­
formal interview. Vermont doesn’t)
2

Violation of Equal Protection and Fundamental Rights
Vermont Cannot Limit Bar Seating to Those Who
Graduated from Law School within Five Years of Exam
Vermont Circuit Creates Circuit Split as Only State to Im­
pose This Limitation
Can Vermont limit Bar Exam seating to those who grad­
uated within Five Years of a scheduled exam? There is no
rational relation between this restriction on a fundamental
right to pursue a profession.
3

Vermont Violations of 14th Amendment Equal Protection
and Fifth Amendment Due Process in Bar Admission
Cannot Require Only One Successful Applicant to Perform
Acts Not Described in Rules
i

If an applicant successfully completes all Vermont State
Bar requirements under the Rules for Admission to the Bar,
does it violate Equal Protection and Due Process if the State
requires one, discrete, solitary party to do things not described
in the Rules and which no other applicant has to do?
4
Separation of Powers
Supreme Court Cannot Perform Legislative, Executive and
Adjudicative Functions
If a Supreme Court writes its own Rules for Admission
to the Bar, does not send them to the legislature as required
by State Statute, appoints parties to administer these rules
and adjudicates activities under these rules, does it violate
separation of powers?

TABLE OF CONTENTS
Page
1. Questions Presented for Review................................... i
2. Table of Contents.......................................................... n
3. Table of Authorities....................................................... in
4. Petition for Writ............................................................ 1
5. List of Proceedings/Opinions Below............................. 1
6. Statement of Jurisdiction............................................. 1
7. Constitutional Provisions............................................. 1
8. Statement of the Case................................................. . 2
(1), (3) Petitioner Required to Perform Acts for Bar
Admission Not Described in Rules and Not Required
of Other Applicants
(2) Informal Character and Fitness Interview not
Sufficient Due Process
(4) Vermont Refuses to Accept 2016 Successful Bar
Score and won’t let Petitioner Sit for Another Exam.
Vermont adopted new Rules for Admission to the Bar
which now require an examinee to have graduated from
law school within five years of the date he/she sits for
the exam. VRAB 9(b)(1)
(5) No Rational Relation between Bar Exam and Law
School Graduation
(6) State Supreme Court Not Sending Rules to
Legislature. Separation of Powers Violated
(7) Violation of Contracts and Ex Post Facto Clauses
9. Reasons to Grant Writ
6
I. Circuit Split: Vermont Character and Fitness Proce­
dure Is Unconstitutional under,’’Willner v. Committee
on Character”, 373 U.S. 96 (1963). Informal Interview is
Not Sufficient Due Process/Need Formal Hearing
II. Circuit Split: Vermont Rule for Admission to the Bar
9(b)(1) Is Divergent from All Other State and Federal
n

Jurisdictions. It Violates Substantive Due Process and
Equal Protection under the Fourteenth Amendment and
Is Not Necessarily, Substantially or Rationally Related
to a Compelling, Substantial, Important or Legitimate
State Interest.
Vermont Rule for Admission to the Bar 9(b)(1) Violates
The Contract and Ex Post Facto Clause. Vermont Can­
not Say Successful Exam Applicant Must Take Another
Exam Then Pass a Rule Which Excludes Petitioner from
Future Seating
III. Vermont Rules for Admission to the Bar Do Not
Meet Separation of Powers Standards. They Were Not
Drafted by the Legislature or Submitted to It As Re­
quired by the U.S. Constitution and Vermont Statute
Annotated 12 Secs 1 and 3(e)
IV. Vermont Bar Excludes Petitioner as “Class of One”
and Violates Fourteenth Amendment Equal Protection
10 Conclusion
16
Circuit Split Between the Constitutional Violations of
Vermont and All Other Federal and State Jurisdictions
Concerning Bar Admission Practices Should Be
Corrected. Petitioner Should Have His Vermont Bar
License.

TABLE OF AUTHORITIES
Page
Case Law
“Appleby v. Delaney”, 271 U.S. 403...........
12
“Clubside, Inc. v. Valentin”, 468 F.3d 144..
14
“Coleman v Watts” 80 S.2d 650 (FL 1955)
6
“Corey Airport Services, Inc. v Clear Channel Outdoor, Inc.” 15
2012 WL 1970236
“Ex parte Garland”, 4 Wall. 333, 71 U. S. 379..................
8
“Grand Trunk Ry. v. Indiana R.R. Comm’n”, 221 U.S. 400
12
“McBumey v. Young” 667 F.3d 454...................................
9
“McDonald v. Village of Winnetka”, 371 F.3d 992.............
14
“Olech v. Village of Willowbrook”, 528 U.S. 562................
15
“Regents of Univ. of Cal. v. Bakke”, 438 U.S. 265..............
9
“Schware v. Board of Bar Examiners”, 353 U. S. 232.......
8
“Supreme Court of New Hampshire vs Kathryn Piper” ...
9
470 U.S. 274
“Toomer v. Witsell” 334 US 385.........................................
9
“Troxel v. Granville”, 530 U.S. 57....................................... 10
“United Building & Construction Trades Council v.........
9
Mayor & Council of Camden”, 465 U.S. 208
“United States v. Munoz-Flores”, 495 US 385..................
13
“United States v. Virginia, 518 U.S. 515............................
10
’Willner v. Committee on Character”, 373 U.S. 96 (1963)..
6
‘Youngstown Sheet & Tube Co. v. Sawyer”, 343 U. S. 579. 13

Federal Statutes
28 U.S.C. 1257

1

Vermont State Statutes and Rules
Vermont Rule for Admission to the Bar (VRAB) 16(b)(1).......3
VRAB 5(b)................................................
3
VRAB 6.....................................................
3
VRAB6(i)(l).............................................
3
Vt. Administrative Order 9, Rule 16(b)(2)
3
VRAB 16(b)(2)..........................................
3
VRAB 9(b)(1)............................................
4
12 VSA l(3)(e)..........................................
9
in

PETITION FOR A WRIT OF CERTIORARI
Petitioner seeks a writ of certiorari to review the No­
vember 13,2020 Opinion and Order of the Vermont Supreme
Court by which his successful application to the bar was re­
fused and he was not allowed to reapply for Bar Status.
LIST OF PROCEEDINGS IN LOWER COURTS
February 1,2017; Vermont Character and Fitness Opinion;
April 17, 2020; Appeal to Vermont Supreme Court from
Vermont Board of Bar Examiners April 13, 2020 decision to
deny Petitioner’s 2020 Application and Right to Reapply
November 13, 2020; Appeal Denied
November 20, 2020; Rehearing Denied
STATEMENT OF JURISDICTION
This Court’s jurisdiction is based upon 28 U.S.C. 1257. It
seeks review from the Vermont Supreme Court.
The Vermont Supreme Court issued its opinion on No­
vember 13,2020. (2020 VT 122) Petitioner filed for Reconsid­
eration on November 16, 2020. It was denied on November
20, 2020. There was no re-hearing.
CONSTITUTIONAL PROVISIONS
Page
Fifth Amendment.........
i
Fourteenth Amendment
8
Article I, Section 10, Clause 1 (Contracts/Ex Post Facto) ....5

1

STATEMENT OF THE CASE
1
Petitioner Required to Perform Acts for Bar Admission Not
Described in Rules and Not Required of Any Other
Applicants/Discrimination against Class of One
Character and Fitness Performed Prior to Bar Exam under
Vermont Law
Petitioner Grundstein passed the Vermont February
2016 Bar Exam. It was his third attempt. Subsequent to
the successful exam, he was asked to go before Vermont’s
“Character and Fitness Committee for a second time. Vermont
law requires Character and Fitness prior to the Bar exam.
Only people of “good character” are allowed to sit for the exam.
Petitioner was screened prior to the exam by the Vermont
Board of Bar Examiners and was permitted to sit for it.
His second scrutiny took place, post-exam, in October,
2016. There were no new ethical concerns.
2

Inadequate Due Process
Informal Interview Not Sufficient
Vermont Character and Fitness is a Standardless Process
It Has No Administrative Procedures Act Style Formal
Hearing and Rules
No Articulated Standard of Review
No Articulated List of Proscribed Behaviors
Character and Fitness is an informal interview. There
was no additional formal administrative hearing available
if the Character and Fitness Committee does not approve a
candidate. There is no articulated quantum of evidence (clear
and convincing, preponderance, etc.), no rules of evidence,
no neutral third party hearing officer (Committee Chair is
representative of Supreme Court) and the burden of proof/
persuasion is reversed. The applicant is asked to prove
admissibility under the rules when it is up to the state to
prove a party is not admissible.
2

There is no articulated standard of review. There is no list
of proscribed behaviors for which a party is denied admission.
The same behavior for which a party would NOT be disbarred
could be the basis for denying admission to the Bar.
There are three criteria under Vermont’s Rules for
Admission to the Bar. They are;
1) Good Character (honesty), VRAB 16(b)(1);
2) Competence; which is proved by passing the bar and
completing the office affiliation requirement, VRAB 5(b)
and 6(i)(l);
3) Fitness; which by rule is limited to physical and psychiatric
defect, Vt. Administrative Order 9, Rule 16(b)(2), VRAB
16(b)(2) and VRAB 6,
Petitioner Satisfies All Criteria for Bar Admission under State
Rules for Admission to Bar
The Committee found that Petitioner was of Good
Character and said it “does not have reason to doubt Mr.
Grundstein’s honesty, ethics or truthfulness”, “Character
and Fitness Committee Op.”, pg. 23 (February 1, 2017)
Petitioner passed the bar and completed the office
affiliation.
Petitioner had no psychiatric, physical or substance abuse
problems as defined under the Vermont Rule for “Fitness”,
which is limited to physical and psychiatric criteria.
Finally, there is no articulated list of violations or bad acts
for which a party could be excluded from bar admission. The
same act for which a party would NOT be disbarred is an
event on which the Character and Fitness Committee could
deny admission.
3

Equal Protection and Due Process Violated
Petitioner Required to Do Something Not in Rules and to
Which No Other Successful Examinee Was Subject/Violate
Equal Protection against Class of One
The Character and Fitness Committee said it wanted
Petitioner to get “more experience” and reapply. There is no
3

rule in support of additional “experience” beyond that defined
in the Vermont Rules for Admission to the Bar.
No other successful bar examinee was ever asked to do
more “experience”.
Reapplication could not take place until two years after the
Committee determination and any appeal.
Petitioner appealed to the State Supreme Court which
said; “Fitness” includes “experience”.
“Experience” is not included in the Vermont definition of
“Fitness”. “Experience” and “minimum competence”, is covered
in a completely separate rule with its own number. “Minimum
Competence” and “Experience” are completely separate from
“Fitness”, which is also described in a completely discrete
section with its own number.
4
Vermont Refuses to Accept 2016 Successful Bar Score on
Reapplication
Requires Petitioner to Take Bar Again but Won’t Let Him
Sit for Exam
Vermont Changed Rules for Admission to the Bar during
Interim
Only Parties Who Graduated from Law School within Five
Years of Exam Seating Allowed to Apply for Bar Exam
Petitioner reapplied in 2019/2020. The Board of Bar
Examiners refused to accept his 2016 Bar Score and said he
must sit for the exam again...but that he couldn’t. Vermont
adopted new Rules for Admission to the Bar which now require
an examinee to have graduated from law school within five
years of the date he/she sits for the exam. VRAB 9(b)(1)
5

Circuit Split on Time Constraint between Bar Exam and
Law School Graduation
No Rational Relation
No other jurisdiction has this time limitation, or any
interval specification, between graduation from law school
and sitting for the bar. There is not even a “rational relation”
4

between this rule and a state interest because Vermont
will accept foreign bar scores without regard for the time
interval between the foreign applicant’s exam and law school
matriculation dates.
6

Separation of Powers Violated
State Supreme Court Not Sending Rules to Legislature
12 VSA l(3)(e) requires the Vermont Supreme Court to
send all its draft rules to the Vermont Legislative Committee
on Supreme Court Rules. The Vermont Supreme Court does
not send them to this committee and has changed the Vermont
Rules for Admission to the Bar several times over the past 12
years without legislative consultation.
This violates separation of powers and is a conflict of
interest. An entity cannot draft its own rules, appoint people to
enforce them (Board of Bar Examiners, Character and Fitness
Committee) and adjudicate these same rules. The Vermont
Supreme Court cannot perform Adjudicative, Legislative and
Executive powers with respect to Bar Admission.
7

Violation of Contracts and Ex Post Facto Clauses
Petitioner accepted and fulfilled the contract terms between
himself and Vermont when he passed the 2016 Bar. The state
cannot impair this right by disregarding its obligation or by
subsequent rule making.
“Article I, Section 10, Clause 1:
No State shall enter into any Treaty, Alliance, or
Confederation; grant Letters of Marque and Reprisal; coin
Money; emit Bills of Credit; make any Thing but gold and
silver Coin a Tender in Payment of Debts; pass any Bill of
Attainder, ex post facto Law, or Law impairing the
Obligation of Contracts, or grant any Title of Nobility.

5

REASONS TO GRANT CERTIORARI
Introduction
Vermont’s Rules for Admission to the Bar Practice
Unconstitutional Divergence from Minimum Standards of
Due Process for Bar Admission and Violate Fundamental
Rights
Vermont Presents Stark Circuit and State Jurisdictional
Splits on What Due Process is Required
Vermont not only violates minimum Constitutional stan­
dards of Due Process when admission is subject to Character
and Fitness procedures but is in stark contrast to other state
jurisdictions and federal bars for this process. It also distin­
guishes itself as the only State in the Union and State/Federal
jurisdiction which has imposed a five year limitation on the
time between which a party must graduate from law school
and take the bar exam (VRAB 9(b)(1).
Vermont’s Constitutional failures with respect to Petition­
er are violations as administered and by virtue of unconstitu­
tional rules and practices.
I
Vermont Character and Fitness Procedure Is Unconstitu­
tional under,”Willner v. Committee on Character”, 373 U.S.
96 (1963) citing, “Coleman v Watts” 80 S.2d 650 (FL 1955)
Informal Interview is Not Sufficient Due Process/Need For­
mal Hearing
This is a Circuit Split/Divergence from Minimum
Standards in Other State and Federal Jurisdictions
Vermont’s Character and Fitness Due Process is inade­
quate and represents a circuit split on what is Due Process
when admission to the bar is not on a pro forma basis.
An informal interview is not sufficient. It is also insuffi­
cient if it makes no reference to objective standards for admis­
sion (rules of professional conduct), has no independent third
party hearing officer, an administrative procedures act style
hearing, rules of evidence, quantum of evidence, burden of
proof or standards of review. It also has reversed the burden
6

of proof for a fundamental right. It is up to the state to prove
that its procedures are constitutional and that the state must
prove that a candidate is not suitable for admission.
Alabama, Delaware, Washington D.C., Florida, Georgia,
Hawaii, Illinois, Kansas, Michigan, New Hampshire, Rhode
Island and Texas...and many others, all have Administrative
Procedures Act style hearings similar to proceedings for At­
torney Discipline/Disbarment, with an articulated standard
of review on appeal when a party is not approved for Bar Ad­
mission after the informal “Character and Fitness” interview.
The US Supreme Court wrote “Willner v. Committee on
Character”, 373 U.S. 96 at 123 (1963), which cited “Coleman
v. Watts”, ibid;
“Upon being denied a certificate by the Board, the appli­
cant petitioned the court for a ruling as to the nature of the
hearing which he should be accorded before the Board or the
court. An order was entered requiring the Board to serve for­
mal written charges against the petitioner, and a record of all
evidence produced at the hearing was subsequently reviewed
by the court. While the Board's ruling was ultimately upheld
by the court, the case serves admirably to illustrate the
rights of an applicant in a situation precisely like that
under consideration in the case at bar.
In that same jurisdiction it was recognized at an early
date, even in the absence of any specific statute or rule
providing for notice and hearing upon the issue of mor­
al fitness for admission to the bar, that such hearings
should properly be conducted along the general lines
followed in disbarment proceedings,”
Florida Character and Fitness procedures give a formal
hearing if a party is not approved after informal interview.
See excerpts from Florida Rules of the Supreme Court Relat­
ing to Admissions to the Bar;
“3-23.1 Specifications. Specifications are formal charges
filed in those cases where the board has cause to believe that
the applicant or registrant is not qualified for admission to
The Florida Bar.
7

3-23.2 Formal Hearing. Except as provided in rule 3-23.1,
any applicant or registrant who receives Specifications is en­
titled to a formal hearing before the board, representation by
counsel at his or her own expense, disclosure by the Office of
General Counsel of its witness and exhibit lists, cross-exam­
ination of witnesses, presentation of witnesses and exhibits
on his or her own behalf, and access to the board’s subpoe­
na power. After receipt of the answer to Specifications, the
board will provide notice of the dates and locations available
for the scheduling of the formal hearing. Formal hearings are
conducted before a panel of the board that will consist of not
fewer than 5 members. The formal hearing panel will consist
of members of the board other than those who participated in
the investigative hearing.”
Cannot Exclude Applicant without Sufficient Due Process/
Formal Hearing
"A State cannot exclude a person from the practice of law
or from any other occupation in a manner or for reasons that
contravene the Due Process or Equal Protection Clause of
the Fourteenth Amendment.", “Wilner”, ibid at 102, citing
“Schware v. Board of Bar Examiners”, 353 U. S. 232, 353 U.
S. 238-239.
“As the Court said in “Ex parte Garland”, 4 Wall. 333, 71
U. S. 379, the right is not "a matter of grace and favor.", “Willner”, ibid, at 102.
II
Vermont Rule for Admission to the Bar 9(b)(1) Is a Divergent
Circuit Split from All Other State and Federal Jurisdictions
It Violates Substantive Due Process and Equal Protection
under the Fourteenth Amendment
Vermont Cannot Restrict the Bar Exam to Parties Who
Graduated from Law School within Five Years of an Exam
As Applied Against Petitioner, It Violates the Contract
Clause and Is an Ex Post Facto Rule
There is no Rational, Substantial or Compelling interest
for the application of new VRAB 9(b)(1) which restricts par­
ties who have not graduated from law school in the past five
years from taking the Vermont Bar. VT is the only state
8

with this restriction and represents a circuit split.
It is an arbitrary classification which violates Equal Pro­
tection and denies parties a fundamental right.
1
Profession as Fundamental Right
Pursuing a profession is a fundamental right which can­
not be abridged by statute or rule unless the rule is necessar­
ily related to a compelling state interest. VRAB 9(b)(1) is not
even rationally related to a legitimate state interest.
See “Supreme Court of New Hampshire vs Kathryn Piper”
470 U.S. 274,105 S.Ct. 1272 84 L.Ed.2d 205;
“In United Building & Construction Trades Council v.
Mayor & Council of Camden, 465 U.S. 208, 104 S.Ct. 1020,
79 L.Ed.2d 249 (1984), we stated that "the pursuit of a com­
mon calling is one of the most fundamental of those privileges
protected by the Clause." Id., at 219, 104 S.Ct., at 1028. We
noted that "[m]any, if not most, of our cases expounding the
Privileges and Immunities Clause have dealt with this basic
and essential activity.", (“Piper”, ibid, sec. Ill, para 18).
This is followed and affirmed by other circuits. See “McBurney v. Young” 667 F.3d 454, Sec. I, para 1 (2012) 4th Cir­
cuit, citing “Toomer v. Witsell” 334 US 385, 396;
“The ability to pursue one’s profession or “common calling”
is one of the limited number of foundational rights protected
under the Privileges and Immunities Clause. “Toomer v. Witsell”, op cit. (1948)
2

Fundamental Rights Subject to Strict Scrutiny
Justice William Brennan Jr. wrote, "a government prac­
tice or statute which restricts 'fundamental rights' or which
contains 'suspect classifications' is to be subjected to 'strict
scrutiny' and can be justified only if it furthers a compelling
government purpose and, even then, only if no less restrictive
alternative is available.", “Regents of Univ. of Cal. v. Bakke”,
438 U.S. 265, 357 (1978).
9

According to Justice Clarence Thomas, "strict scrutiny" is
the "appropriate standard" for "infringements of fundamental
rights.", “Troxel v. Granville”, 530 U.S. 57, 80 (2000)
Justice Antonin Scalia has recognized that "strict scrutiny
will be applied to the deprivation of whatever sort of right we
consider 'fundamental.", “United States v. Virginia, 518 U.S.
515, 568
3

Vermont Rule for Admission to the Bar 9(b)(1) is Not
Necessarily or Substantially Related to a Compelling or
Substantial State Interest
It is Not Even Rationally Related to a Legitimate State
Interest
Vermont Rules for Admission to the Bar Define “Minimum
Competence” Independent of Graduation Date
Minimum Competence is proved by passing the bar and
completing the office affiliation requirement, VRAB 5(b) and
6(i)(l). The Exam and office affiliation/apprenticeship deter­
mine competence under the rules, not the interval between
graduation and a successful score. The score remains the
same and is not worth less or more relative to a graduation
date.
“Graduation Date” is Unconstitutional Prior Restraint
Must Allow Parties Opportunity to Take Exam to Prove
Competence
If an exam and practical experience prove competence,
there can be no Graduation Date condition precedent which
interferes with the right to take a Bar Exam. The right to
prove competence cannot be arbitrarily removed from a party
who has completed the educational requirements to take Ver­
mont’s Bar. A state cannot conclude that someone who has
made the enormous investment of time, effort and money in
law school cannot have the opportunity to sit for its exam.

10

11

VRAB 9(b)(1) is Not Necessarily Related to a Compelling
State Interest
No Legislative Review or Legislative Committee Study to
Support It
There is no legislative or committee activity with respect
to this rule. The VRAB were and are never sent to the Ver­
mont Legislative Committee on Supreme Court Rules as re­
quired under 12 VSA1 (3)(e). There is no responsible, scientif­
ic or scholarly study which proves parties who sit for the bar
more than five years after graduation cannot be competent or
reliable attorneys. There is no data on this at all.
I’m sure most licensed attorneys who passed the bar 20
years ago could not pass it today.
in

Vermont Allows UBE Scores from Other Jurisdictions
Independent of the Time between Which the Out of State
Score Was Achieved Relative to Graduation
In Doing So, Vermont Violates Its Own Internal Logic
The irony is comical. Vermont discriminates between par­
ties who sit for the bar in Vermont on the basis of the Grad­
uation-Exam Time Interval, but don’t impose this Interval
Restriction on Bar Exam Scores achieved in the jurisdiction of
another state.
This is the reverse of Article II Section 4 Privileges and
Immunities by which Vermont FAVORS out of state exams
and violates the Fourteenth Amendment Privileges and Im­
munities/Equal Protection standards which belong to parties
inside Vermont.

11

4
Vermont Rule for Admission to the Bar 9(b)(1) Violates The
Contract and Ex Post Facto Clause
Vermont Cannot Say a Successful Exam Applicant Must
Take Another Exam Then Pass a Rule Which Excludes Him
from Future Seating
Article I, Section 10, Clause 1:
“No State shall enter into any Treaty, Alliance, or Confed­
eration; grant Letters of Marque and Reprisal; coin Money;
emit Bills of Credit; make any Thing but gold and silver Coin
a Tender in Payment of Debts; pass any Bill of Attainder, ex
post facto Law, or Law impairing the Obligation of Contracts,
or grant any Title of Nobility.”
A “law” in this context may be a statute or administrative
regulation having the force and operation of a statute. See,
“Grand Trunk Ry. v. Indiana R.R. Comm'n”, 221 U.S. 400
(1911); “Appleby v. Delaney”, 271 U.S. 403 (1926), both
of which involved commissions enforcing administrative
regulations.
Petitioner Grundstein fulfilled all the requirements necessary for admission to the Vermont Bar in February, 2016.
He formed a contract with the State of Vermont by which if he
performed all the requirements for Bar admission, he would
be admitted under the terms of the active rules at the time.
There was no reason to submit Petitioner to another exam
and Vermont refused him the opportunity to take it again.
Vermont Board of Bar Examiners would not accept the
February 2016 score and insisted that Petitioner must reap­
ply and take a new exam. It also said he couldn’t take a new
exam because a new rule, VRAB9(b)(l) was published which
restricted exam seating to parties who graduated from law
school within five years of the Bar Exam.
VRAB 9(b)(1) was not written then. It was part of Vermont
Supreme Court rules published later (Effective Sept. 18, 2017)
and cannot be used against Petitioner.

12

<

III
Vermont Rules for Admission to the Bar Do Not Meet Sepa­
ration of Powers Standard
They Were Not Drafted by the Legislature or Submitted to It
As Required by Constitution
and
Vermont Statute Annotated 12 Sec 1 and 3(e)
1
Separation of Powers Authority
“United States v. Munoz-Flores”, 495 US 385, 394 (1990);
“This Court has repeatedly emphasized that, "the Consti­
tution diffuses power the better to secure liberty.”, "Morri­
son”, supra, at 694 (quoting “Youngstown Sheet & Tube Co. v.
Sawyer”, 343 U. S. 579, 635 (1952) (Jackson, J., concurring)).
See also “Morrison”, supra, at 697. (SCALIA, J., dissenting,
"The Framers of the Federal Constitution ... viewed the prin­
ciple of separation of powers as the absolutely central guaran­
tee of a just Government"
2

Courts Are Not Subject to Constituent Selection
The Vermont Supreme Court has no electoral constituen­
cy. Its lack of such a constituency is a reason why the Supreme
Court should not be considered a legislature on the premise
that a legislative body is legitimate in a democracy only if it is
directly or indirectly elected. It is undesirable to promulgate
legislation of any kind in an undemocratic forum.
3

Courts Must Be Subject to External Scrutiny of Legislature
The constitutional problem posed by the structure of the
Supreme Court as a legislature can be viewed as analogous
to the constitutional problem posed by the structure of the
government as a whole: If the institution is not subjected to
regulation by some external legal authority.

13

If we accept the fact that the Supreme Court is a legisla­
tive body, there appears to be no agency to subject it to judicial
review to assure its subordination to the law. If the essence of
the rule of law is the ubiquity of such subordination, then tljie
Court's exercise of legislative powers is itself a violation of the
rule of law. This, in essence, is the constitutional basis of the
argument that the Court "is" not a legislative body: It would
be constitutionally intolerable if it were.
The Federal Judiciary Acts created court jurisdiction to
hear “cases and controversies”, not to write statutes or rules
determining substantive rights.
4
Separation of Powers Ensures Judges Are Not Only Account­
able to Themselves
Who judges the judges?”, can be answered by saying, “They
judge themselves.” All political institutions, in fact, engage
continuously in a process of self-examination and redirection.
They should try to bring to bear their faculties of reflection,
teaching, action, and forbearance in such a way as to inhibit
and counterbalance destructive tendencies within the insti­
tution itself. But they often, don’t. This is not regarded as a
sufficient safe-guard in most political institutions, hence the
system of checks and balances.
IV
Vermont Bar Excludes Petitioner as “Class of One” and Vio­
lates Fourteenth Amendment Equal Protection
Petitioner already passed the 2016 February bar and
complied with all prerequisites under Vermont Rules for Ad­
mission to Bar. He was told he would not be admitted until
he had “more experience” and was told to re-apply, at which
time (3 years later) he was told he could not reapply because
new rules had been published which do not make a state Bar
Exam available to anyone who has not graduated from law
school within five years of an exam date.

14

1 There was and is no legal basis to impose an additional
“experience” requirement on Petitioner which was not been
applied to any other bar applicant in his exam group or any
other Vermont State Bar applicant, ever.
The Equal Protection Clause of the 14th Amendment says,
“... nor shall any State... deny to any person within its ju­
risdiction the equal protection of the laws.” This means all
persons similarly situated should be treated alike.
“Similarly situated” means a comparator who is similar
in all relevant and material respects, “McDonald v. Village
of Winnetka”, 371 F.3d 992 (7thCir. 2004), or when there is
an extremely high degree of similarity between plaintiff and
comparator(s), “Clubside, Inc. v.Valentin”, 468 F.3d 144 (2ndDist. 2006).
A non-suspect class may bring equal protection claims, so
long as it is a discrete, identifiable group. “Corey Airport Ser­
vices, Inc. v Clear Channel Outdoor, Inc”.,2012 WL 1970236
(llthCir. 2012).
U.S. Supreme Court Recognizes Class of One
“Olech v. Village of Willowbrook”, 528 U.S. 562 (2000
“Olech v. Village of Willowbrook, op. cit, held that the
Equal Protection Clause gives rise to cause of action on be­
half of “class of one” where plaintiff did not allege member­
ship in a class or group. A “class of one” may bring a claim
where she has been intentionally treated different from oth­
ers similarly situated and there is no rational basis for the
disparate treatment.

15

CONCLUSION
Circuit Splits Between Vermont and All Other State and
Federal Jurisdictions Need to Be Resolved in Favor of Higher
Due Process Standards for Bar Admission Procedures 1
Petitioner Should Be Awarded His License
Vermont has personalized, subjectified and contradicted
its standards for Bar Admission in violation of Due Process,
Equal Protection and operating standards in most, if not all
other state and federal jurisdictions.
Petitioner met all the standards under the “Vermont Rules
for Admission to the Bar” (VRAB) in 2016. There was no basis
to defer his license at that time.
Vermont’s Character and Fitness procedure is inadequate
and standard-less. It is limited to an informal interview be­
fore the Character and Fitness Committee and has no formal
hearing with Administrative Procedures Act style rules.
Vermont’s Supreme Court rule making pertinent to the
Rules for Admission to the Bar violates state and Constitu­
tional law. The rules were not sent to the state legislature as
required by 12 VSA Sec 1 and 3(e) and thereby offend Separa­
tion of Powers.
Vermont (new) Rule for Admission to the Bar 9(b)(1) cannot meet any level of scrutiny under Equal Protection or Fun­
damental Rights analysis. It can’t even meet a rational rela­
tion standard. There is no reason for a Five Year limitation
between law school graduation and the right to sit for a Bar
Exam.
Finally, VRAB 9(b)(1) cannot be applied against Petitioner
as an Ex Post Facto rule. It didn’t exist at the time he and sev­
eral other met all the requirements for admission to the Bar
in 2016.
Petitioner should be awarded his license on the basis of his
successful February 2016 bar exam score.

16

1

I

!!
Il
1

/

1
'

j
i

SM Robert Grundstein Esq.
Attorney for Petitioner
18 Griggs Road
Morrisville, VT 05661
802-397-8839/rgrunds@pshift.com

:

